28. Rewards. Your credit card purchases are eligible to earn rewards points that never expire
while the Account is open. Full rewards terms and conditions were provided to you at Account
opening or as they were updated and are available at our website www.purduefed.com.
29. Skip Payment Option. At our option, we may offer you the opportunity to not make
a Minimum Payment during certain designated billing cycles (“Skip Payment Period”). If
you do not make your Minimum Payments as provided in this Agreement during the Skip
Payment Period, you understand that we will continue to apply interest charges to your
Account. Beginning with the billing cycle following an allowed Skip Payment Period, all other
provisions of this Agreement will apply. We have no obligation to accept your application for
any Skip Payment Period offered, and you authorize us to investigate your creditworthiness
including obtaining consumer credit reports. We may charge you an application processing
fee of $35 for each Skip Payment Period that we may offer to cover our costs of investigating
your qualifications for this extension, including but not limited to the costs associated with
researching your creditworthiness. You agree that we may amend the fee from time to time
and by applying you consent to the applicable fee.
Your Billing Rights: Keep This Document for Future Use
This notice contains important information about your rights and our responsibilities under
the Fair Credit Billing Act.
What to Do If You Find a Mistake on Your Statement.
If you think there is an error on your statement, write to us at:
Purdue Federal Credit Union
PO Box 1950
West Lafayette, IN 47996-1950
Or email us at mbrservice@purduefed.com
In your letter, give us the following information:
• Account information: Your name and account number.,
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your bill, describe what you believe is
wrong and why you believe it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is scheduled, if you want to stop
payment on the amount you think is wrong.
You must notify us of any potential errors in writing. You may call us, but if you do we are not
required to investigate any potential errors and you may have to pay the amount in question.
What Will Happen After We Receive Your Letter.
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we received your letter. We will
also tell you if we have already corrected the error.
2. Within 90 days of receiving your letter, we must either correct the error or explain to you
why we believe the bill is correct.
While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as delinquent on that amount.
• The charge in question may remain on your statement, and we may continue to charge you
interest on that amount.
• While you do not have to pay the amount in question, you are responsible for the remainder
or your balance.
• We can apply any unpaid amount against your credit limit.

After we finish our investigation, one of two things will happen:
• If we made a mistake: You will not have to pay the amount in question or any interest or
other fees related to that amount.
• If we do not believe there was a mistake: You will have to pay the amount in question, along
with applicable interest and fees. We will send you a statement of the amount you owe and
the date payment is due. We may then report you as delinquent if you do not pay the amount
we think you owe.
If you receive our explanation but still believe your bill is wrong, you must write to us within
10 days telling us that you still refuse to pay. If you do so, we cannot report you as delinquent
without also reporting that you are questioning your bill. We must tell you the name of anyone
to whom we reported you as delinquent, and we must let those organizations know when the
matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50 of the amount
you question even if your bill is correct.

PURDUE FEDERAL CREDIT UNION VISA DISCLOSURE STATEMENT
This table provides important information regarding your credit card account with
Purdue Federal Credit Union.

Interest Rates and Interest Charges
Annual Percentage Rate (APR)
Rates apply to purchases, balance transfers and cash advances
Visa Traditional Rewards

PLEASE RETAIN THIS INFORMATION WITH OTHER FINANCIAL DOCUMENTS.

1.9% introductory APR for 12 months from date of

account opening. After that, based on your credit worthiness,
your APR will revert to your assigned APR of

Visa Signature

11.5% - 17.5%
0% introductory APR for 12 months from date of account

opening. After that, based on your credit worthiness, your
APR will revert to your assigned APR of

11.5% - 17.5%

Your Rights If You Are Dissatisfied with your Credit Card Purchases.
If you are dissatisfied with the good or services that you have purchased with your credit card,
and you have tried in good faith to correct the problem with the merchant, you may have the
right not to pay the remaining amount due on the the purchase. To use this right, all of the
following must be true:

How to Avoid Paying
Interest on Purchases

1. The purchase must have been made in your home state or within 100 miles of your current
mailing address, and the purchase price must have been more than $50. (Note: Neither of
these are necessary if your purchase was based on an advertisement we mailed to you, or if
we own the company that sold you the goods or services.)

Your due date is at least 25 days after the close of each billing
cycle. We will not charge you any interest on purchases if you
pay your entire balance by the due date each month. We will
begin charging interest on cash advances, convenience checks
and balance transfers on the transaction date.

For Credit Card Tips from
the Consumer Finance
Protection Bureau

2. You must have used your credit card for the purchase. Purchases made with cash advances
from an ATM or with a check that accesses your credit card account do not qualify.

To learn more about factors to consider when applying for
or using a credit card, visit the website of the Consumer
Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore.

Fees

3. You must not yet have fully paid for the purchase.

Annual Fee

If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in
writing at:

Transaction Fees
• Balance Transfer
• Cash Advance
• Foreign Transaction

Purdue Federal Credit Union
PO Box 1950
West Lafayette, IN 47996-1950
Or email us at mbrservice@purduefed.com
While we investigate, the same rules apply to the disputed amount as discussed above. After
we finish our investigation, we will tell you our decision. At that point, if we think you owe an
amount and you do not pay, we may report you as delinquent.

Penalty Fees
• Late Payment
• Returned Payment

None
• None
• None
• None - Signature
• Traditional Rewards - Up to 1% of each transaction after
conversion to U.S. dollars
• Late Payment Fee up to $25.00
• Returned Payment Fee up to $25.00

How We Will Calculate Your Balance: We use a method called “average daily balance (including
new purchases).” See your Cardholder Agreement for more details.
Loss of Introductory APR: We may end your Introductory APR and apply the assigned APR
(11.5% - 17.5% APR, depending on your creditworthiness) if you make a late payment or make a
payment that is returned.
Billing Rights: Information on your rights to dispute transactions and how to excercise those rights
is provided in your Cardholder Agreement.

PO Box 1950 // West Lafayette, IN 47996-1950
765.497.3328 // 800.627.3328 // purduefed.com

Federally insured by NCUA.

Visa® Traditional Rewards
and Signature Credit
Cardholder Agreement

02/16

This Agreement covers each Visa credit card line of credit account (“Account”) you have with
Purdue Federal Credit Union (“Purdue Federal”, “we” or “us”). The words “you” and “your”
mean each and all of those who sign an Account application and any person authorized
to access your Account or use your credit card. “Card” means a Visa credit card and any
duplicates and renewals we issue. By requesting, signing, using or keeping your Card and/or
Convenience Checks, you are agreeing to all the terms and conditions of this Agreement, Visa
Application, Your Guide to Member Services, and the Fee Schedule, including the right to crosscollateralization and the granting of a security interest as detailed below.
1. Using the Account. When you are approved for an Account, Purdue Federal establishes a
line of credit for you and notifies you of your credit limit when the Card is sent to you. In order
for your Card to be valid, you must sign your Card as soon as you receive it. By requesting,
signing, using or keeping your Card and/or Convenience Checks, you accept this Agreement.
You agree not to let your Account balance exceed your approved credit limit. Each payment
you make on the Account will restore your credit limit by the amount of the payment that is
applied to the principal balance. You may request an increase in your credit limit by submitting
an application, which may be approved by Purdue Federal. Purdue Federal has the right to
restrict, increase, reduce or terminate your credit limit at any time without notice.
2. Using the Card. You may use your Card to make purchases in person or by mail, telephone
or internet from merchants and others who accept Visa cards. In addition you may obtain cash
advances from Purdue Federal, other financial institutions participating in the Visa program
and select Automated Teller Machines (ATMs), such as Visa ATM Network, that provide access to
the Visa system (not all ATMs provide such access). You will need to use your Personal Identification Number (PIN) to obtain a cash advance from an ATM. We will begin charging interest on
your cash advance from the date of your cash advance transaction. Your card may not be used
for any illegal transaction, including any illegal Internet gambling transaction.
3. Using Convenience Checks. We may supply you with convenience checks from time to
time. You may use these checks to draw on your available line of credit on your Account. A
convenience check drawn on your Account is a loan from Purdue Federal to you and will be
treated like a cash advance under this Agreement. We will begin charging interest on the
amount of the Convenience Check from the date of the Convenience Check transaction.
4. Overdraft Protection. If you have requested your Account to be used to provide
Overdraft Credit Card Protection Plan (the “Plan”) for a checking account maintained with
Purdue Federal, funds may be transferred from your Visa Account to the checking account in
accordance with Your Guide to Member Services governing the checking account. All funds
will be transferred in increments of $100 and are processed as a cash advance under this
Agreement and treated as such. Such transfers are loans by us to you. You will owe Purdue
Federal for the amount of such transfers plus the applicable interest. You understand that
anyone who is authorized to make withdrawals from the checking account may access your
Visa Account through the Plan.
5. Responsibility. You agree to pay all charges, purchases, transfers, and cash advances
made from your Account by you or anyone who you authorized to use your Account. Your
obligation to pay the amount owed on your Account continues until paid in full, even though

an agreement, divorce decree or other court judgment to which Purdue Federal is not a
party may direct someone else to pay the Account balance. If more than one person signed
the Application, each is individually responsible for all amounts owed on the Account and
all are jointly responsible for all amounts owed. This means Purdue Federal can enforce this
Agreement against any of you individually or all of you together.
6. Making Payments. You promise to pay all amounts you owe on your Account, including
any interest or fees. When you receive your billing statement you may pay the full amount
due or a lesser amount, but the least you may pay is the minimum payment amount shown
on your billing statement. Your minimum payment will be any amount that is past due, any
amount exceeding your credit limit, plus the larger of 3% of your new balance or $25 (the
“Minimum Payment”). If we elect not to require a Minimum Payment for a month or longer
period, the interest on your Account will continue to accrue at the applicable interest rate.
Paying ahead and skipping a payment will not reduce your liability for interest charges in the
month that you do not make a payment. Whatever you choose to pay, your payment must be
received by us no later than the payment due date shown on your statement. All payments
made to us must be in U.S. dollars. Mailed payments must be addressed as directed on your
statement. Mailed payments received by 5:00 PM Eastern at that address will be credited the
same day. In some cases, available credit may be delayed until payment is verified. We will
accept late or partial payments without forfeiting any of our rights under this Agreement.
Payments that are marked “paid in full” and that are of an amount less than the balance on
your Account, or that are marked with any other restrictive endorsements, should be sent to
1551 Win Hentschel Blvd., West Lafayette, IN 47996, Attn: Loan Services.

cash advance balances, balance transfer balances, and purchase balances. Excess payments
over the Minimum Payment will be applied to the applicable balance with highest interest rate
and any remaining payment to next highest interest rate in descending order.
10. Security Interest and Statutory Lien.
a. You acknowledge and pledge, specifically as a condition of your use of the
Card and Account, that you have voluntarily granted to Purdue Federal a security
interest in your shares and dividends on deposit in all your individual and joint
accounts with Purdue Federal now and in the future. These other shares may
be withdrawn unless you are in default under this Agreement. If your credit
card Account becomes delinquent, this security interest may be used without
further notice to pay all or any part of such delinquency. Shares and deposits in
an Individual Retirement Account and any other account that would lose special
tax treatment under state or federal law if given as security are not subject to the
security interest you give in your shares and deposits.
b. You also acknowledge and pledge to Purdue Federal a security interest in the
collateral securing any other loan(s) that you have with us now and in the future,
including any type of change or increase, and any proceeds from the sale of such
collateral and of insurance thereon, not to exceed the unpaid balance of this loan.
This security interest in collateral securing other loans does not apply to any loan(s)
on your primary residence.

(b) Cash Advances. Interest will be charged on cash advances from the date of the transaction
to the date paid in full. Interest accrued on cash advances will appear on your next statement.
There is no time period in which to pay back the cash advance to avoid interest charges.

11. Default. You will be in default if a) you fail to make any Minimum Payment or other
required payment by the date it is due; b) you violate any terms of this Agreement or fail to
perform any of your obligations under this Agreement; c) your ability to repay is materially
reduced by a change in your employment, by an increase in your obligations, by bankruptcy
or insolvency proceedings involving you, or by your death or incapacity; d) you make any false
or misleading statements in any credit applications or credit update; e) Purdue Federal, in its
sole discretion, feels insecure and has a good faith belief that your ability to repay is impaired
or you use your Account in a manner that may expose Purdue Federal to a risk of loss; or f) you
use or authorize the use of your Card to make or facilitate any illegal transaction. When you
are in default, Purdue Federal has the right to close your Account to future purchases, cash
advances, and balance transfers, to cancel or inactivate your Card, and to demand immediate
payment of your entire Account balance (after giving you any notice and opportunity to
cure the default if required by applicable law). If immediate payment is demanded, you will
continue to pay interest at the periodic rate charged before default, until what you owe has
been paid and any collateral given as security will be applied toward what you owe or sold
pursuant to law. To the extent permitted by law, you will also be required to pay Purdue
Federal’s collection expenses, including court costs and reasonable attorneys’ fees.

(c) Balance Transfers. Balance transfers will be processed as cash advances and interest will
be charged from the date of the transaction to the date paid in full. Interest accrued on
balance transfers will appear on your next statement. There is no time period in which to pay
the balance transfer to avoid interest charges. We are not responsible for late payment or
nonpayment of balances with other card issuers.

12. Liability for Unauthorized Use. Your Purdue Federal Visa offers “zero liability” for
unauthorized use. To obtain the “zero liability” status you must report any unauthorized use of
your Account immediately. If you notice the loss or theft of your Card or possible unauthorized
use of your Card or Account, you should notify us immediately by calling 800.627.3328, email
us at mbrservice@purduefed.com or write to PO Box 1950, West Lafayette, IN 47996-1950.

8. Monthly Payment. Each month you must pay at least the Minimum Payment shown on
your statement by the date specified on your statement. You may pay more frequently, pay
more than the Minimum Payment, or pay your balance in full. If you make extra payments or
larger payments, you are still required to make at least the Minimum Payment each month
your Account has a balance.

13. Use of Card for Illegal or Risky Transactions. It is your responsibility to comply with
all laws when using your Card and Account. You agree to hold us harmless for any damages
or other liability arising from a transaction initiated by you or your authorized user for the
purpose of conducting an illegal activity. We reserve the right to decline the authorization
of transactions for activities we believe may violate law or pose significant risk to us or our
members.

7. Interest Charges. Interest charges for purchases, balance transfers, and cash advances
are determined by applying the applicable periodic rate to the separate average daily balance
for each category of purchases, balance transfers, and cash advances. Each average daily
balance is determined by taking the beginning balance (of cash advances, balance transfers,
or purchases) in your Account each day, adding any new purchases, balance transfers, or cash
advances and subtracting any payments,credits, and unpaid interest charges and fees. The
results are the average daily balances for each category. We then add together all the daily
balances for the billing cycle and divide the total by the number of days in the billing cycle to
get to the average daily balance for each category. If a grace period applies:
(a) Purchases. Interest will be charged on a purchase posted during a billing cycle when the
entire balance is not paid in full by the due date of that statement. Your due date is at least 25
days after the close of each billing cycle.

9. Payment Allocation. Subject to applicable law, your Minimum Payment will be applied to
what you owe Purdue Federal in the following order: interest, fees, promotional rate balances,

14. Changing or Terminating Your Account. Purdue Federal may change the terms of this

Agreement from time to time after giving you advance notice as required by law. Your use
of the Card after receiving notice of a change will indicate your agreement to the change. To
the extent the law permits, and indicated in the notice to you, the change will apply to your
existing Account balance as well as to future transactions. Either you or Purdue Federal may
terminate this Agreement at any time, but termination by you or Purdue Federal will not affect
your obligation to pay the Account balance plus any interest, fees and other charges you owe
under this Agreement. The Cards you receive remain the property of Purdue Federal and you
must recover and surrender to Purdue Federal all Cards upon request or upon termination
of this Agreement whether by you or Purdue Federal. If you choose not to accept any future
change of these terms, your credit limit will be removed and your Minimum Payment will be
calculated based on a five-year amortization schedule. To opt out of a future change to these
terns, Purdue Federal requires written notice by electronic mail to mbrservice@purduefed.com
or by postal mail to PO Box 1950, West Lafayette, IN 47996-1950.
15. Consumer Reporting Agencies. Purdue Federal may report information about your
Accounts to credit bureaus. Late payments, missed payments, or other defaults on your
Account may be reflected in your credit report. We may also access your credit report for any
permissible purpose under the Fair Credit Reporting Act, including periodic reviews of your
creditworthiness, collections, and future credit line increases.
16. Returns and Adjustments. Merchants and others who honor the Card may give credit
for returns or adjustments, and they will do so by sending Purdue Federal an electronic
credit, which will be posted to your Account. If your credits and payments exceed what you
owe Purdue Federal, the amount will be credited to your Account. Any credits exceeding your
balance will be transferred to your savings account within 30 days.
17. Foreign Transactions. Purchases and cash advances made in foreign countries and
foreign currencies will be billed to you in U.S. dollars. The conversion rate to U.S. dollars will be
made in accordance with the operating regulations for international transactions established
by Visa U.S.A. The conversion rate to U.S. dollars will be a rate selected by Visa from the range
of rates available in wholesale currency markets for the applicable central processing date,
which may vary from the rate Visa itself receives, or the government-mandated rate in effect
for the applicable central processing date, in each instance,. Traditional Card holders will be
charged an International Service Assessment (ISA) fee, up to 1% of the foreign transaction
amount based on whether the transaction is processed in U.S. dollars or converted to U.S.
dollars. All transactions, including online transactions, that may have been originated by the
cardholder in the U.S., but are processed by a foreign merchant are subject to this fee. You may
not receive prior notification from the merchant that your transaction is processed overseas.
The ISA fee is waived for Signature Card holders.
18. Merchant Disputes. Purdue Federal is not responsible for the refusal of any merchant or
financial institution to honor the Card.
19. Effect of Agreement. This Agreement is the contract that applies to all transactions
on your Account even though the sales, cash advances, credit or other slips you sign or
receive may contain different terms. You agree to all the terms and charges contained in this
Agreement.
20. No Waiver. Purdue Federal can delay enforcing any of its rights any number of times
without losing these rights.
21. Statements and Notices. You will receive a statement each month showing transactions
on your Account. Statements and notices will be mailed to you at your physical address
or posted to Online Banking if you have enrolled in electronic statements. Enrollment in
electronic statements for your primary share savings account applies to this Account.. Notice
sent to any one of you will be considered a notice to all. You consent to your Credit Card

Account statement being included in the mailing of the primary share savings
account statement even if all owners on the primary savings are not signers on
this loan or authorized users of the Card. Statements may not be generated when there
are no transactions on the Account in that month. It is your responsibility to notify Purdue
Federal upon a change of address—electronic mail or postal mail. You understand and agree
that statements are made available to you on the date they are mailed to you or the date on
which email notification advising that your statement is available is sent. If you fail to receive
a statement you agree to notify us within fourteen (14) days of the time you regularly receive
a statement.
22. Other Fees. Fees that apply will be added to your Account on the monthly statement for
the billing cycle in which they are incurred, as follows:
a) Late Payment Fee– A late fee in the amount of $25 or the Minimum Payment due rounded
to the whole dollar, whichever is less, will be charged if we do not receive your minimum
payment on or before the payment due date as noted on your statement.
b) Returned Payment Fee – A fee up to $25 will be charged if you (i) make a payment on your
Account with a check, draft, negotiable order of withdrawal, ACH, external transfer, or similar
payment drawn on a depository institution and such payment is not paid or is dishonored by
that financial institution, or (ii) issue a Convenience Check which causes you to exceed your
approved credit limit.
c) Statement Copy – A $5 fee will be charged for any copy of a statement that you request
from Purdue Federal. For a copy of an original sales slip requested from Visa, you will be
charged their applicable fee.
The charges and Fees will be treated by Purdue Federal as an adjustment to the Account
balance and will not be subject to an interest charges; however, we may choose to waive any
of the interest charges or fees described in this Agreement or the Fee Schedule from time to
time.
23. Savings Account Required. All Purdue Federal Account owners must have an open
savings account with a $5.00 minimum balance. If you do not have a savings account, one will
be opened for you at the time of your credit card application approval. If your balance is less
than $5.00, your Card may be charged with a purchase transaction to bring your balance to the
minimum.
24. Personal Identification Number (PIN). Upon request we will furnish you with a
Personal Identification Number (PIN). You agree to keep the PIN confidential. You also agree
that use of the PIN and Card to obtain a cash advance or make a purchase constitutes your
signature for purposes of such transactions.
25. How We May Contact You. You expressly agree that to service your Account or to collect
any amounts you may owe Purdue Federal, we or authorized parties may call you and send
text messages to you. We may use pre-recorded/artificial voice messages or an automatic
dialing device to contact you at any telephone number associated with your account, including
mobile telephone numbers, all of which could result in charges to you. You also expressly
consent that we may send email messages regarding your Account to any email address that
you have provided to us.
26. Optional Insurance. We may have offered credit life, accident, health, or loss-of income
insurance at the time you applied for your Account. This insurance is not required to have an
Account or Card with us.
27. Inactive Accounts. Accounts with expired Cards that have no activity for a period of 24
months will be closed. Any rewards points accrued with this Card or Account will expire when
the Account is closed.

